CERTIFICATE OF SERVICE
NO. TBD
Tommy Sharp, Interim Warden
Petitioner(s)
v.
Jimmy Dean Harris
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the TOMMY
SHARP PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Jack Dwayne Fisher, Esq.
Jack Fisher Attorney at Law
P.O. Box 1976
Edmond, OK 73083-0000
(405) 235-9466
okfishlaw@aol.com
Counsel for Jimmy Dean Harris

Lucas DeDeus

March 2, 2020
SCP Tracking: Crabb-Oklahoma Office of the Attorney General-Cover White

